U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


           BUREAU OF THE CENSUS
             Decennial Census Warehousing
               Operations Needed Attention
           Audit Report No. DEN-11950-0-0001/July 2000




                 Office of Audits, Denver Regional Office
July 28, 2000


MEMORANDUM FOR:               Dr. Kenneth Prewitt, Director
                              Bureau of the Census


FROM:                         Johnnie E. Frazier

SUBJECT:                      Decennial Census Warehousing Operations Needed Attention
                              Final Audit Report No. DEN-11950-0-0001

The Office of Inspector General has completed a performance audit of the Census Bureau’s
decennial census warehousing operations at the National Processing Center in Jeffersonville,
Indiana. This is our final report on that audit and follows our (1) draft audit report issued
February 25, 2000, and (2) early warning memorandum on the issue that we sent to the bureau on
November 19, 1999. We have concluded that the bureau needed to address two areas affecting
its warehousing operations: (1) understocked inventory items and (2) differences in kit
specifications. Our findings and recommendations appear on pages 3 through 7. The bureau
generally agreed with our findings but did not implement our recommendations stating that
alternative corrective actions have been taken or are planned and that insufficient time was
available to fully implement the recommendation. The bureau’s complete response is included as
Attachment 2 to this report. We found that the bureau did not fully address either finding and
request additional clarification in the audit action plan, as discussed on pages 4 and 6.

We would appreciate receiving your audit action plan addressing our recommendations within 60
calendar days, in accordance with Department Administrative Order 213-5. The plan should be
in the format specified in Exhibit 7 of the DAO. Should you have any questions regarding
preparation of the audit action plan, please contact William R. Suhre, Regional Inspector General
for Audits, at (303) 312-7650. We appreciate the cooperation and courtesies extended to us by
bureau staff at headquarters and at the center.

INTRODUCTION

The 2000 decennial census counts every resident of the United States, Puerto Rico, and U.S.
territories as of April 1, 2000. In preparation for the decennial census, the bureau established
temporary field offices throughout the United States and Puerto Rico. The field offices include
12 regional census centers (RCCs), and 520 local census offices (LCOs). The RCCs manage the
other field offices, recruit and train personnel, and provide payroll and administrative support.
The LCOs perform the bulk of the field activities such as enumeration, address listing, and
followup operations.
U.S. Department of Commerce                                         Report No. DEN-11950-0-0001
Office of Inspector General                                                            July 2000



To complete the decennial census accurately and on schedule, it is essential that the field
offices have sufficient quantities of various printed forms, supplies, and other materials. The
bureau’s National Processing Center plays a significant role in providing the essential items to
the field offices. The center warehouses approximately 1,500 different decennial forms,
office supplies, and other items, prepackages the items into 323 different types of kits, and
ships the kits to the field offices in time for various decennial field operations.

The 2000 decennial census is the fifth such census supported by the center, which opened in
1958 and is situated on 80 acres, with 13 office and warehouse buildings. For the 2000
decennial census, the center leased seven additional nearby warehouses. The center will also
serve as one of four data capture centers to scan the information on the completed decennial
census forms. Employment ranges from about 1,100 to 2,400 in non-decennial years,
increasing to 3,500 in support of decennial activities.

PURPOSE AND SCOPE OF AUDIT

During August through November 1999, the Office of Inspector General conducted a
performance audit of the bureau’s decennial census warehousing operations at the center.
Our overall objective was to determine whether any impediments exist that would affect the
availability and readiness of materials and supplies needed at decennial field offices.

The scope of our audit included the center’s warehousing, kit assembly, and shipping
operations to support the field offices. We evaluated the center’s kit specification/kit
schedule and inventory systems. We also evaluated the role of the bureau’s Field Division in
specifying kit assembly and shipping instructions, but did not evaluate the adequacy of the
bureau’s analysis in specifying the content and quantity of kits to deliver to field offices.

We reviewed applicable laws, regulations, policies, and procedures; examined selected files
and records; and reviewed appropriate documentation. We interviewed headquarters officials
in Suitland, Maryland, and center officials in Jeffersonville, Indiana. We found no instances
of non-compliance with applicable laws and regulations.

We reviewed the adequacy of internal controls and assessed the reliability of computer-
generated data that was used in our audit. We tested the accuracy of the data and concluded
that it was sufficiently reliable for use in meeting our objectives. We did not assess the
overall reliability of computer systems because the OIG’s Office of Systems Evaluation is
conducting separate reviews of decennial-related computer systems.

The audit was conducted in accordance with Government Auditing Standards and was
performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                              -2-
U.S. Department of Commerce                                          Report No. DEN-11950-0-0001
Office of Inspector General                                                             July 2000



FINDINGS AND RECOMMENDATIONS

The census warehousing operations are an integral part of the decennial census. To complete
the decennial census accurately and on schedule, it is essential that the field offices have
sufficient quantities of various printed forms, supplies, and other materials. We found two
areas involving the bureau’s decennial census warehousing operations that warrant
management’s attention: (1) understocked inventory items and (2) differences in kit
specifications.

Understocked Inventory Items Needed Attention

Shipment to the field offices of almost one-third of the kits containing necessary printed
forms, supplies and other materials needed for field operations was delayed because many of
the items contained in the kits were understocked (either not in stock or in short supply) in
the center’s warehouses. Of the 323 types of kits expected to be shipped by the center, 106
were scheduled for shipment by November 1, 1999, and all of these were delayed. Center
staff provided us with a list of 87 different inventory items needed for the November kits that
were understocked as of November 2, 1999. The items were understocked because the kit
specifications were finalized too late for purchase orders to be placed with vendors for
shipment to the center in a timely manner. Kit specifications are not considered final unless
they include the number of kits to assemble and ship, the items to be included, and the
quantity of each item. The Field Division is responsible for providing the kit specifications to
the center.

Kit specifications were finalized late because as of November 2, 1999, the center did not have
any specifications for 28 (9 percent) of the 323 types of kits expected during the 2000
decennial census, and has only partial specifications for an additional 74 (23 percent). Of the
kits scheduled for shipment in November, 2 kits lacked specifications and 28 had only partial
specifications. (See Attachment 1 for a listing of kit specifications and schedule data as of
November 2, 1999.) During our exit conference, bureau officials stated that the reason for the
lack of specifications was that many bureau organizations are involved in the process, and a
failure by any one of them to provide specification information in time may cause a delay in
the Field Division’s communication of specifications to the center.

There are a number of actual and potential adverse effects associated with understocked
inventory items. As a result of the 87 items being understocked, the November shipment was
delayed. Future shipment delays, and ultimately decennial operation delays, may occur
unless adequate supplies of inventory items are available. The November delay resulted in an
additional burden on the center because less time was available to assemble and ship the kits
when the items eventually arrive. This time shortage to assemble kits may result in either
overtime hours or hiring additional kit assemblers during non-business hours, thereby
increasing decennial costs.

The adverse effects to the center are subordinate to the consequences to the field offices, in
which the ultimate outcome is the decennial census. As a result of the understocked

                                               -3-
U.S. Department of Commerce                                           Report No. DEN-11950-0-0001
Office of Inspector General                                                              July 2000



inventory items, the center sometimes sends incomplete kits to the field offices and then
ships the remaining items in bulk for the field office to complete the kit assembly. We
reviewed 68 types of kits assembled by the center through November 2, 1999, and found that
19 (28 percent) contained one or more backshipped items, for a total of 48 backshipped items,
to be delivered later. However, we learned from our review at decennial dress rehearsal
operations in South Carolina and California, that the delivery of incomplete kits resulted in an
additional burden placed on the field offices to complete the assembly. During the dress
rehearsal, one of the consequences of incomplete kits was that the field offices did not have
enough time to complete assembly of the kits and that the some enumeration teams were
prevented from starting the operation on time. 1

Recommendation

We recommend that the Director, Bureau of the Census, direct the Associate Director for
Field Operations to ensure that all kit specifications for future census operations are finalized
in a timely manner, including aggressively pursuing acquisition of any understocked items.

Census Bureau’s Response

The bureau concurred with our draft report recommendation to finalize all kit
specifications as soon as possible and aggressively pursue all acquisition of all
understocked items and stated that systems were put in place October 1999 to alleviate any
shortfall of understocked items. The bureau indicated that our conclusions are not valid
because they were based on a kit shipment strategy that has since been updated. Later
than expected delivery of materials to the NPC required the bureau to change the strategy.
The previous strategy is based on four shipments to the LCOs for the entire decennial
census, each shipment containing materials for a number of operations starting within a
common time frame. The revised strategy is based on one shipment for each operation.
Additional procedures instituted since October 1999 included weekly calls and visits to
NPC by headquarters staff to assess progress and problems. The bureau believes that the
new strategy has been successful, despite some late deliveries due to printing delays.

OIG Comments

The bureau agreed with our recommendation and stated that it is taking appropriate action to
alleviate any shortfall of understocked items, and is confident that kits will arrive in the LCOs
on schedule. However, we are concerned that the bureau’s response did not adequately


       1
       Final Audit Report Numbers ESD-10783-8-0001, “Columbia Dress Rehearsal Experience
Suggests Changes to Improve Results of the 2000 Decennial Census” and ESD-10784-8-0001,
“Sacramento Dress Rehearsal Experience Suggests Changes to Improve Results of the 2000
Decennial Census,” both dated September 30, 1998.


                                               -4-
U.S. Department of Commerce                                           Report No. DEN-11950-0-0001
Office of Inspector General                                                              July 2000



address the more fundamental question of why the inventory was understocked. Even
though it is too late to correct the problem for the 2000 decennial census, the audit action plan
should state how the bureau plans to prevent or otherwise address similar understocked
inventory problems for the next decennial census or other related operations. The response
implies that the late deliveries were beyond the bureau’s control with the statement that “later
than expected delivery of materials to the NPC made the four shipment strategy unfeasible.”
However, since the bureau was late in finalizing certain kit specifications, we believe that the
bureau’s actions significantly contributed to many of the late deliveries.

Kit Specification Differences Should Be Resolved

For 42 (14 percent) of the 295 types of kits with at least partial specifications, 48 differences
existed between the Field Division and the center over various aspects of the specifications
(see Attachment 1). Some examples of the differences are as follows.

•      For 36 kits, specifications for the contents differed. For example, the division’s
       specifications for Kit No. 27, SBE Soup Kitchen Trainer Kit, of which 5,110 are to be
       assembled, includes Payroll Form D-308, which was not included in the center’s
       specifications.

•      For 10 kits, the specifications for the quantity of various items differed. For example,
       the division’s specifications for Kit No. 547, Enumerator Supply Kit, of which
       837,942 kits are to be assembled, include quantity differences in three items.

•      For two kits, the specifications for the quantity to be assembled differed between the
       division and the center.

These differences occurred because the Field Division and the center maintain kit
specifications separately. The division’s specifications are listed in a series of memorandums,
whereas the center’s specifications are maintained in the kit specification/schedule system.
As specifications become available to the division from the various bureau organizations,
they are communicated to the center via a series of memorandums. The center then retypes
the data from the memorandum into the kit specification/schedule system, which also
contains other pertinent kit information. The division’s lists are not in an electronic format
usable by the center without retyping. Therefore, differences in the division’s and the
center’s specifications can occur if the data is retyped incorrectly or if the system is not
updated to reflect revisions the division made to an earlier memorandum.

The center developed the system to plan for and manage kit assembly and shipping
operations. However, the memoranda alone do not provide the center with an effective tool
to manage the assembly and shipment of hundreds of different types of kits involving

                                                -5-
U.S. Department of Commerce                                          Report No. DEN-11950-0-0001
Office of Inspector General                                                             July 2000



millions of printed forms and supplies. The kit specification/schedule system allows the
center to perform many tasks easily which are not possible or practical using only the
memoranda, such as sorting kits according to type of operation or scheduled shipment date
and comparing required forms and supplies with inventory on hand.

Maintaining only one system for kit specifications, such as the one developed by the center,
would eliminate differences between the division’s and the center’s specifications. Since
only one system should be maintained, and the center’s system is automated and more
reliable than a series of memorandums, the Field Division should directly input specification
and schedule data into the center’s system. Field Division is ultimately responsible for the
correctness of the kit specifications, therefore Field Division personnel should be responsible
for ensuring the most current specifications are input to the system. If left uncorrected, the
differences in kit specifications may cause kits to be assembled and shipped incorrectly,
thereby disrupting and delaying field office operations.

Recommendations

We recommend that the Director, Bureau of the Census, direct the Associate Director for
Field Operations (1) to reconcile the differences between the Field Division’s kit
specification/kit schedule lists and the center’s kit specification/kit schedule system for any
kits remaining to be sent under the 2000 decennial census, and (2) for future census
operations, to have the Field Division enter updates to kit specifications directly to the system
developed by the center.

Census Bureau’s Response

The bureau stated that it appreciated the need to have compatible systems, but could not
implement the recommendation at this time. Reconciliation between the two existing
systems would require the development, testing, and implementation of an entirely new
nationwide system which should be delayed until after the 2000 Decennial Census. The
bureau also believed that the revised strategy and oversight systems outlined in its
response to the first recommendation were sufficient for meeting supply and material
requirements for remaining Census 2000 operations.

OIG Comments

We appreciate the bureau’s positive response to our recommendation and are encouraged
that the bureau agrees that a compatible system is needed. However, we are concerned that
the oversight systems outlined in the bureau’s response to the first recommendation did not
indicate whether for example, the 48 differences in kit specifications have been resolved. We
are also disappointed that the bureau did not take any action to consolidate the two kit
specifications systems into one so that any additional reconciliation differences could be
avoided. We formally notified the bureau as early as November 19, 1999, in our

                                               -6-
U.S. Department of Commerce                                        Report No. DEN-11950-0-0001
Office of Inspector General                                                           July 2000



memorandum of preliminary issues, that differences existed and that the bureau should
maintain only one system. During our exit conference of November 30, 1999, we again
discussed the problem with bureau officials. Although the response to our draft audit report
stated that the bureau “cannot implement the recommendation at this time,” the bureau could
have resolved the kit specification differences noted in our report by using either of the two
existing systems, if prompt action had been taken.

Furthermore, our recommendation did not include developing a new system, which we agree
would have been probably too late to develop in time for the 2000 decennial census even if
the development process had started in November 1999. Moreover, the bureau’s description
of a new system being nationwide is confusing since only two locations are involved -- the
Field Division and the center. The audit action plan should state how the bureau plans to
address discrepancies in kit specifications, caused by the two systems, for the next decennial
census or other census operations that depend on carefully coordinated efforts between
bureau units to ensure effectiveness and efficiency.

Attachments




                                             -7-
